No. 20-219
In the

Supreme Court of the United States
__________________
JANE CUMMINGS,
v.

Petitioner,

PREMIER REHAB KELLER, P.L.L.C.,
Respondent.
__________________
On Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit

__________________

BRIEF OF AMICI CURIAE DISABILITY
ORGANIZATIONS IN SUPPORT OF
PETITIONER
__________________
RAFFI MELKONIAN
Counsel of Record
MICHAEL ADAMS-HURTA
WRIGHT CLOSE & BARGER, LLP
One Riverway, Suite 2200
Houston, Texas 77056
(713) 572-4321
melkonian@wrightclosebarger.com
Counsel for Amici Curiae

August 30, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
IDENTITY AND INTEREST OF
AMICI CURIAE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
INTRODUCTION AND SUMMARY OF
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
I. Denying damages for mental anguish would
leave some people with disabilities with no
remedy at all, even for egregious violations of
the law . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
II. Emotional distress damages, though crucial, are
hard to prove and reasonable in scope. . . . . . . . 16
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

ii
TABLE OF AUTHORITIES
CASES
Barnes v. Gorman,
536 U.S. 181 (2002). . . . . . . . . . . . . . . . . . . . 17, 19
Bolden v. Se. Pa. Transp. Auth.,
21 F.3d 29 (3d Cir. 1994) . . . . . . . . . . . . . . . . . . 18
Brady v. Fort Bend County,
145 F.3d 691 (5th Cir. 1998). . . . . . . . . . . . . . . . 18
Carey v. Piphus,
435 U.S. 247 (1978). . . . . . . . . . . . . . . . . . . . 12, 20
C.G.A. v. Iredell-Statesville Sch. Dist. Bd. of Educ.,
No. 5:20-CV-00192-KDB-DSC,
2021 WL 3423763 (W.D.N.C. June 17, 2021) . . 10
City of Hollywood v. Hogan,
986 So. 2d 634 (Fla. Dist. Ct. App. 2008). . . . . . 21
Davis v. City of Chicago,
2020 IL App (1st) 182551-U,
147 N.E.3d 687 (Ill. 2020). . . . . . . . . . . . . . . . . . 21
Davis v. Monroe County Bd. Of Ed.,
526 U.S. 629 (1999). . . . . . . . . . . . . . . . . . . . . . . 17
Delano-Pyle v. Victoria Cty.,
302 F.3d 567 (5th Cir. 2002). . . . . . . . . . . . . 14, 19
Doucette v. Georgetown Public Sch.,
936 F.3d 15 (1st Cir. 2019) . . . . . . . . . . . . . . . . . 13

iii
Francois v. Our Lady of the Lake Hospital,
No. 20-30707, ___ F.4th ___, 2021 WL 3465006
(5th Cir. Aug. 6, 2021) . . . . . . . . . . . . . . . . . . . . 17
Gebser v. Lago Vista Indep. Sch. Dist.,
524 U.S. 274 (1998). . . . . . . . . . . . . . . . . . . . . . . 17
Gorman v. Easley,
No. 95-0475-CV, 1999 WL 34808615
(W.D. Mo. Oct. 28, 1999). . . . . . . . . . . . . . . . . . . 19
Gunby v. Pennsylvania Electric Co.,
840 F.2d 1108 (3d Cir. 1988) . . . . . . . . . . . . . . . 18
Hetzel v. County of Prince William,
89 F.3d 169 (4th Cir. 1996). . . . . . . . . . . . . . . . . 18
Howe v. Hull,
873 F. Supp. 72 (N.D. Ohio 1994) . . . . . . . . . . . 19
Linder v. Bos. Fair Hous. Comm’m,
84 Mass. App. Ct. 1125,
999 N.E.2d 502 (2013) . . . . . . . . . . . . . . . . . . . . 21
M.P. v. Indep. Sch. Dist. No. 721,
Civ. No. 01-771, 2006 WL 8444974
(D. Minn. Dec. 14, 2006) . . . . . . . . . . . . . . . . 15, 19
M.P. v. Independent School District No. 721,
326 F.3d 975 (8th Cir. 2003). . . . . . . . . . . . . . . . . 9
Orkin Exterminating Co., Inc. v. Jeter,
832 So.2d 25 (Ala. 2000) . . . . . . . . . . . . . . . . . . . 21
Pierce v. District of Columbia,
No. 1:13-cv-134, 2016 WL 7225220
(D.D.C. May 11, 2016) . . . . . . . . . . . . . . . . . . . . 19

iv
Powers v. MJB Qcquisition Corp.,
184 F.3d 1147 (10th Cir. 1999). . . . . . . . . . . 19, 20
Prakel v. Indiana,
100 F. Supp. 3d (S.D. Ind. 2015) . . . . . . . . . . . . 12
Reed v. Columbia St. Mary’s Hosp.,
782 F.3d 331 (7th Cir. 2015). . . . . . . . . . . . . 11, 12
R.W. v. Bd. of Regents of the Univ. Sys. of Ga.,
No. 1:13-CV-2115, 2016 WL 607395
(N.D. Ga. June 7, 2016) . . . . . . . . . . . . . . . . . . . 19
Snell v. N. Thurston Sch. Dist.,
No. 3:14-cv-05786, 2015 WL 9474130
(W.D. Wash. Nov. 21, 2015) . . . . . . . . . . . . . 19, 20
Suffolk Cty. Cmty. Coll. v. N.Y. State Div. of
Human Rights, 75 A.D.3d 513,
904 N.Y.S.2d 753 (2010) . . . . . . . . . . . . . . . . . . . 21
Sumes v. Andres,
938 F. Supp. 9 (D.D.C. 1996) . . . . . . . . . . . . 19, 20
Thomas v. Tex. Dep’t of Criminal Justice,
297 F.3d 361 (5th Cir. 2002). . . . . . . . . . . . . . . . 20
Trainor v. HEI Hosp., LLC,
699 F.3d 19 (1st Cir. 2012) . . . . . . . . . . . . . . . . . 20
STATUTES
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
42 U.S.C. § 12101(a)(2) . . . . . . . . . . . . . . . . . . . . . . . 8

v
OTHER AUTHORITIES
Amended Complaint, Weiss v. Bethesda
Health, Inc., No. 9:15-cv-80831 (S.D. Fla. Aug. 6,
2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Complaint, Blum v. Univ. of Tex. Med. Branch, No.
1:95-cv-00170 (E.D. Tex. Mar. 29, 1995) . . . . . . 14
Complaint, Gaina v. Northridge Hosp. Med. Ctr.,
No. 2:18-cv-177 (C.D. Cal. Jan. 8, 2018) . . . . . . 14
First Amended Complaint, Beyer v. Ascension
Health, No. 2:20-cv-12942 (E.D. Mich. April 26,
2021) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
First Amended Complaint, McGee v. Tregre,
No. 2:18-cv-03341 (E.D. La. April 16, 2018) . . . 12
Jury Instructions, Snell v. N. Thurston Sch. Dist.,
No. 3:14-cv-05786 (Nov. 12, 2015) . . . . . . . . . . . 19
Jonathan Lave, Maggie Sklar, Avra Van der Zee, A
right without a remedy: an analysis of the
decisions by the district court and Eleventh
Circuit in Sheely v. MRI Radiology Network and
the Implications for Disabled Americans’ Ability
to Receive Emotional Damages under the
Rehabilitation Act and the ADA, 4 SETON HALL
CIRCUIT REVIEW 1 (2007) . . . . . . . . . . . . . . . . . . 11
Second Amended Complaint, Sampson v. Beth
Israel Deaconess Med. Ctr., No. 1:06-cv-10973
(D. Mass. June 13, 2007) . . . . . . . . . . . . . . . . . . 13
Verdict Form, Snell v. N. Thurston Sch. Dist., No.
3:14-cv-05786 (Nov. 12, 2015). . . . . . . . . . . . . . . 19

1
IDENTITY AND INTEREST OF AMICI CURIAE1
The Fifth Circuit’s decision—that compensatory
damages for mental and emotional harm are
unavailable under a wide range of statutes—threatens
serious harm to the rights of persons with disabilities,
as well as protected classes under other Spending
Clause statutes and federal laws whose remedies are
defined by Title VI. Amici, including among others The
Arc of the United States, the Paralyzed Veterans of
America, and the National Association of the Deaf,
share a commitment to protect the rights of those with
disabilities.
The National Association of the Deaf: The
National Association of the Deaf (NAD), founded in
1880 by deaf and hard of hearing leaders, is the oldest
national civil rights organization in the United States.
As a non-profit serving all within the USA, the NAD
has as its mission to preserve, protect, and promote the
civil, human, and linguistic rights of at least 48 million
deaf and hard of hearing people in this country. The
NAD is supported by affiliated state organizations in
49 states and D.C. as well as affiliated nonprofits
serving various demographics within the deaf and hard
of hearing community. Led by deaf and hard of hearing
people on its Board and staff leadership, the NAD is
dedicated to ensuring equal access in every aspect of
life: health care and mental health services, education,
1

No counsel for any party has authored this brief in whole or in
part, and no person other than the amici or their counsel have
made any monetary contribution intended to fund the preparation
or submission of this brief. All parties consent to the filing of this
amicus brief.

2
employment, entertainment, personal autonomy, voting
rights, access to professional services, legal and court
access, technology, and telecommunications. These
efforts rely on utilizing all tools of enforcement
available to our community including the longstanding
option of pursuing federal damages for mental distress
and emotional injury.
The Arc of the United States: The Arc of the
United States (the Arc), founded in 1950, is the
Nation’s largest community-based organization of and
for people with intellectual and developmental
disabilities (IDD). Through its legal advocacy and
public policy work, The Arc promotes and protects the
human and civil rights of people with IDD and actively
supports their full inclusion and participation in the
community throughout their lifetimes.
Paralyzed Veterans of America: Paralyzed
Veterans of America (PVA) is a national,
congressionally-chartered veterans service organization
headquartered in Washington, DC. PVA’s mission is to
employ its expertise, developed since its founding in
1946, on behalf of armed forces veterans who have
experienced spinal cord injury or a disorder (SCI/D).
PVA seeks to improve the quality of life for veterans
and all people with SCI/D through its medical services,
benefits, legal, advocacy, sports and recreation,
architecture, and other programs. PVA advocates for
quality health care, for research and education
addressing SCI/D, for benefits based on its members’
military service and for civil rights, accessibility, and
opportunities that maximize independence for its
members and all veterans and non-veterans with

3
disabilities. PVA has nearly 16,000 members, all of
whom are military veterans living with catastrophic
disabilities. To ensure the ability of our members to
participate in their communities, PVA strongly
supports the opportunities created by and the
protections available through federal disability civil
rights laws, including Section 504 of the Rehabilitation
Act of 1973, as amended.
The Center for Public Representation: The
Center for Public Representation (CPR) is a public
interest law firm that has assisted people with
disabilities for more than 40 years. CPR uses legal
strategies, systemic reform initiatives, and policy
advocacy to enforce civil rights, expand opportunities
for inclusion and full community participation, and
empower people with disabilities to exercise choice in
all aspects of their lives. CPR is both a statewide and
a national legal backup center that provides assistance
and support to public and private attorneys
representing people with disabilities in Massachusetts
and to the federally funded protection and advocacy
programs in each of the States. CPR has litigated
systemic cases on behalf of persons with disabilities in
more than 20 states and submitted amici briefs to the
United States Supreme Court and many courts of
appeals in order to enforce the constitutional and
statutory rights of persons with disabilities, including
the right to be free from discrimination under the
Americans with Disabilities Act, Section 504 of the
Rehabilitation Act, and other laws.
The Disability Rights Education & Defense
Fund: The Disability Rights Education & Defense

4
Fund (DREDF), based in Berkeley, California, is a
national nonprofit law and policy center dedicated to
protecting and advancing the civil and human rights of
people with disabilities. Founded in 1979 by people
with disabilities and parents of children with
disabilities, DREDF remains board- and staff-led by
members of the communities for whom we advocate.
DREDF pursues its mission through education,
advocacy and law reform efforts. DREDF is nationally
recognized for its expertise in the interpretation of
federal disability civil rights laws, and has participated
as amicus in numerous high court matters involving
those laws. As part of its mission, DREDF works to
ensure that people with disabilities have the legal
protections, including broad legal remedies, necessary
to vindicate their right to be free from discrimination.
The National Disability Rights Network: The
National Disability Rights Network (NDRN) is the nonprofit membership organization for the federally
mandated Protection and Advocacy (P&A) and Client
Assistance Program (CAP) agencies for individuals
with disabilities. The P&A and CAP agencies were
established by the United States Congress to protect
the rights of people with disabilities and their families
through legal support, advocacy, referral, and
education. There are P&As and CAPs in all 50 states,
the District of Columbia, Puerto Rico, and the U.S.
Territories (American Samoa, Guam, Northern
Mariana Islands, and the US Virgin Islands), and there
is a P&A and CAP affiliated with the Native American
Consortium which includes the Hopi, Navajo and San
Juan Southern Paiute Nations in the Four Corners
region of the Southwest. Collectively, the P&A and

5
CAP agencies are the largest provider of legally based
advocacy services to people with disabilities in the
United States.
The Association of Late Deafened Adults: The
Association of Late Deafened Adults (ALDA) is a
nationwide nonprofit organization comprised largely of
people who lost some or all of their hearing after
acquiring spoken language. Virtually all ALDA
members require some form of assistance, such as ASL
interpreters or real-time captioning, to communicate
effectively. As part of its mission to empower and
enrich the lives of its members, ALDA has been a
leader in advocating for captioning at movie theaters
and live theaters, both through persuasion and
education and, if necessary, through legal action. Much
of its advocacy work is undertaken in cooperation with
other organizations, including the National Association
of the Deaf, the Hearing Loss Association of America
and Telecommunications for the Deaf, Inc.
Judge David L. Bazelon Center for Mental
Health Law: Founded in 1972 as the Mental Health
Law Project, the Judge David L. Bazelon Center for
Mental Health Law is a national non-profit advocacy
organization that provides legal assistance to
individuals with mental disabilities. Through litigation,
public policy advocacy, education, and training, the
Bazelon Center works to advance the rights and dignity
of individuals with mental disabilities in all aspects of
life, including health care, community living,
employment, education, housing, voting, parental and
family rights, and other areas. The Americans with

6
Disabilities Act and Section 504 of the Rehabilitation
Act are central to the Center’s litigation.
The National Health Law Program: The
National Health Law Program (NHeLP), founded in
1969, protects and advances health rights of lowincome and underserved individuals and families,
including people with disabilities. NHeLP advocates,
educates, and litigates at the federal and state levels to
advance health and civil rights in the U.S. NHeLP has
participated in numerous systemic litigation to enforce
the rights of people with disabilities to be free from
discrimination under the Americans with Disabilities
Act, Section 504 of the Rehabilitation Act, Section 1557
of the Affordable Care Act, and other laws. NHeLP
also serves as a legal backup center for attorneys and
advocates across the country representing people with
disabilities. Throughout its history NHeLP has
consistently defended and fought to expand health and
civil rights of those most in need, including ensuring
equal access for people with disabilities.
Council of Parent Attorneys and Advocates:
Council of Parent Attorneys and Advocates (COPAA) is
a not-for-profit organization for parents of children
with disabilities, their attorneys, and advocates.
COPAA provides resources, training, and information
for parents, advocates, and attorneys to assist in
obtaining the free appropriate public education (FAPE)
such children are entitled to under the Individuals with
Disabilities Education Act (IDEA), 20 U.S.C. § 1400, et
seq. Our attorney members represent children in civil
rights matters. COPAA also supports individuals with
disabilities, their parents, and advocates, in attempts

7
to safeguard the civil rights guaranteed to those
individuals under federal laws, including the Civil
Rights Act of 1871, ch. 22, 17 Stat. 13 (codified as
amended at 42 U.S.C. §1983) (Section 1983), Section
504 of the Rehabilitation Act of 1973, 29 U.S.C. § 794
(Section 504) and the Americans with Disabilities Act,
42 U.S.C. § 12101, et seq. (ADA).

8
INTRODUCTION AND
SUMMARY OF ARGUMENT
Americans with disabilities rely on the protections
of federal statutes that incorporate the remedies of
Title VI to help make their way in the world. Without
these statutes, these individuals would be unable to get
medical care, attend school, or access other public
facilities and services on the same terms and conditions
as non-disabled Americans. As Congress recognized in
passing the Americans with Disabilities Act, society
has a “tendency to isolate and segregate individuals
with disabilities” such that discrimination “continues
to be a serious and pervasive social problem.” 42 U.S.C.
§ 12101(a)(2) (2000).
The Fifth Circuit here eliminated an entire class of
damages that those who have been subjected to
unlawful discrimination can obtain—remedies for their
mental distress and emotional injury. The Fifth Circuit
insisted it was preventing plaintiffs from making “an
end-run around the Supreme Court’s limitations” on
damages. And Respondent warned of serious
widespread consequences if plaintiffs were allowed to
obtain such damages. As detailed in Petitioner’s brief,
neither contention is supported by law or experience.
Amici write to make two important points. First,
without the availability of damages for mental distress
and emotional injury, some individuals who have been
denied a legal right in violation of federal law will have
no remedy. Often, violations of the relevant statutes do
not cost individuals with disabilities money, nor do
they impose physical harm. Instead, they are
humiliated, singled out, mocked, or made to go

9
without regular access to the service to which they are
entitled. Those are all serious harms that cannot be
disregarded as mere annoyance or passing
embarrassment that might not justify recovery. Such
core harms to human dignity are the very injuries that
the Rehabilitation Act, Title VI, Title IX, and the
Affordable Care Act are meant to prohibit. Taking
away an important remedy for these harms would rob
our civil rights statutes of their force.
Second, Amici write to emphasize that plaintiffs
seeking damages for emotional injury face significant
obstacles already. Experience shows that it is very
difficult to prove emotional distress damages, and there
are sufficient protections in place, including
evidentiary and other standards carefully applied by
vigilant trial and appellate courts, to ensure that these
damages are awarded under proper circumstances and
in reasonable amounts. Indeed, where a remedy is
available there is little indication that courts or service
providers are overrun by large damages awards for
emotional distress. Amici’s experience and research
illustrate the point: when plaintiffs successfully bring
claims based on emotional distress, the sums awarded
are generally modest. This is because the standards for
proving the kind of emotional harm that justifies
damages are rigorous, and courts carefully analyze
awards for adherence to the law and the evidence.
Although it is extremely important that individuals
with disabilities have access to a monetary remedy for
violations of the statutes enacted to protect them from
discrimination, this Court need not worry that the
consequences of ruling in their favor would be an

10
unstoppable freight train of emotional distress liability.
Nothing could be further from the truth.
ARGUMENT
I. Denying damages for mental anguish would
leave some people with disabilities with no
remedy at all, even for egregious violations of
the law.
Amici agree with the arguments made by Petitioner
that Title VI’s text, structure, and history support
awarding damages for emotional distress to plaintiffs.
As a result, all of the statutes incorporating Title VI’s
analytical framework, properly understood, also allow
recovery of this remedy under this Court’s wellestablished precedent.
In some cases, a damages award for emotional
distress is the only remedy available to person with a
disability who is discriminated against. The
consequence of the Fifth Circuit’s rule in this
case—that a plaintiff bringing one of a number of
statutory claims can never, under any circumstances,
recover mental anguish damages, is that those statutes
will provide a right without any meaningful remedy for
some people with disabilities. Yet, those damages
compensate for real injuries, addressing real harm
suffered by real people. See, e.g., C.G.A. v. IredellStatesville Sch. Dist. Bd. of Educ., No. 5:20-CV-00192KDB-DSC, 2021 WL 3423763, at *1–2, (W.D.N.C. June
17, 2021) (court held claim that allegations that school
district failed to investigate teacher who abused
student with autism by repeatedly placing him in a
trash can, causing the student to develop PTSD, stated

11
a claim under Section 504 and the ADA). This is
especially so because other potential remedies under
the relevant statutes are often unavailable—for
example, injunctive relief is unavailable once a patient
with a disability is no longer in need of the originally
sought-after treatment.
To deny recovery for plaintiffs in this situation
would be to dramatically undermine deterrence of the
very misconduct Congress intended to limit. See, e.g.,
Jonathan Lave, Maggie Sklar, Avra Van der Zee, A
right without a remedy: an analysis of the decisions by
the district court and Eleventh Circuit in Sheely v. MRI
Radiology Network and the Implications for Disabled
Americans’ Ability to Receive Emotional Damages
under the Rehabilitation Act and the ADA, 4 SETON
HALL CIRCUIT REVIEW 1, 23 (2007).
Some individuals who have been denied services
because of their disabilities do not have any significant
out-of-pocket or pecuniary damages. This very case
illustrates the problem. Ms. Cummings was able to find
another service provider that did provide interpreters,
but their work was unsatisfactory. She suffered no
physical injury because of Respondent Premier Rehab’s
refusal to serve her, nor did she spend extra money.
Instead, she suffered “humiliation, frustration, and
emotional distress,” Pet. App. 25a, all serious and
substantive injuries that frequently arise when persons
are discriminated against based on their disability or
another protected status.
Other cases in which emotional damages were held
to be available are similar. In Reed v. Columbia St.
Mary’s Hosp., 782 F.3d 331, 334 (7th Cir. 2015), for

12
instance, a patient with a variety of disabilities was
thrown into a “seclusion room” while seeking
treatment. Id. And in McGee v. Tregre, police officers
refused to provide an interpreter for a deaf woman who
contacted them about home-theft and domestic-abuse
issues, instead forcing her untrained children to
interpret for her. See First Amended Complaint, McGee
v. Tregre, No. 2:18-cv-03341 (E.D. La. April 16, 2018).
The domestic-violence disputes, which involved another
person who was not deaf communicating with the
police, twice led to the plaintiff’s arrest—including
once where she was Mirandized and then questioned
without the use of an interpreter. Id. The plaintiffs in
these cases did not suffer any particular pecuniary
injury under the Rehabilitation Act—but there is no
question they suffered a serious wrong that is
recognized in many other parts of the law. See, e.g.,
Carey v. Piphus, 435 U.S. 247, 265 (1978) (holding that
“mental and emotional distress caused by the denial of
procedural due process itself is compensable under
§ 1983”).
There are also cases in which individuals suffer
relatively small pecuniary harms—like having to pay
twice for the same service—but much greater
emotional harms. Those cases, under the Fifth Circuit’s
rule, would, in essence, result in a defendant’s
misconduct being sanctioned. For instance, a plaintiff
may have hired an interpreter to help them understand
their criminal proceeding—a relatively small sum—but
have suffered much greater emotional distress at
having been deprived the fundamental right to
participate in their own defense. See Prakel v. Indiana,
100 F. Supp. 3d 661 (S.D. Ind. 2015) (holding that a

13
plaintiff could recover emotional distress damages for
having to attend criminal hearings without an
interpreter and could recover reimbursement for an
interpreter she hired). Or a child may have suffered
serious damages that cannot easily be separated into
physical and emotional categories, as in a case where
denial of an accommodation of a service animal that
alerted caretakers to impending seizures caused a
dangerous health risk. See Doucette v. Georgetown
Public Sch., 936 F.3d 15, 32 (1st Cir. 2019). Or a person
with psychiatric disabilities may have suffered
intertwined physical and emotional harms due to
forced strip-searches and disrobing by a hospital’s
security guards. See Second Amended Complaint,
Sampson v. Beth Israel Deaconess Med. Ctr., No. 1:06cv-10973 (D. Mass. June 13, 2007). And yet under the
Fifth Circuit’s rule, none of these cases would likely be
brought given the disparity between the relatively
small amount of physical harm versus the significantly
larger amount of emotional harm.
These emotional or mental distress claims do not
involve mere embarrassment or worry or anxiety. In
contrast, emotional distress claims that result in
damages arise from moments of extreme humiliation,
isolation, and anguish that no person should have to
endure. Examples abound, especially, as in this case, in
the context of discrimination against people who are
deaf or hard of hearing:
• A deaf son is the primary caretaker of his
mother who has been diagnosed with cancer. His
mother receives hospice care, but the care
provider refuses to provide him with an

14
interpreter, preventing him from communicating
about the final care for his dying mother. See
First Amended Complaint, Beyer v. Ascension
Health, No. 2:20-cv-12942 (E.D. Mich. April 26,
2021).
• A deaf person is involved in a minor car
accident. Because he is unable to understand the
police officer’s instructions without an
interpreter, he fails his field sobriety tests and is
wrongfully arrested, suffering significant
emotional distress in the process. See DelanoPyle v. Victoria Cty., 302 F.3d 567, 570–72 (5th
Cir. 2002).
• A deaf person needs emergency medical care.
The hospital provides them no accommodation,
and they suffer extreme humiliation during their
care because of their inability to express their
needs through any means other than
handwritten notes, which are a much less
effective means of communication. See
Complaint, Gaina v. Northridge Hosp. Med. Ctr.,
No. 2:18-cv-177 (C.D. Cal. Jan. 8, 2018).
• A deaf woman with a high-risk pregnancy asks
for an interpreter to help her communicate
during childbirth. She is simply dismissed and
suffers embarrassment and humiliation during
her delivery. See Amended Complaint, Weiss v.
Bethesda Health, Inc., No. 9:15-cv-80831 (S.D.
Fla. Aug. 6, 2015); Complaint, Blum v. Univ. of
Tex. Med. Branch, No. 1:95-cv-00170 (E.D. Tex.
Mar. 29, 1995).

15
Individuals with disabilities use Section 504 to
obtain remedies for disability-based harassment that
often causes exclusively (or mainly) emotional distress
damanges. For example, in M.P. v. Independent School
District No. 721, 326 F.3d 975, 982 (8th Cir. 2003), the
court held that a student had stated a claim that school
administrators acted with bad faith or gross
misjudgment when “they failed to take appropriate
action to protect M.P.’s academic and safety interests”
after a school nurse had disclosed to other students
that he had schizophrenia, resulting in months of
harassment by classmates. The harassment included,
among other things, calling him “weirdo” and “psycho”
and spitting on him and slamming him into lockers. Id.
at 978. A jury ultimately awarded the student
damages of $84,675. See M.P. v. Indep. Sch. Dist. No.
721, Civ. No. 01-771, 2006 WL 8444974, at *1 (D.
Minn. Dec. 14, 2006).
As set forth in Part II of this brief, there is no
serious danger of excessive damage awards for noncompliance with anti-discrimination law. Awards of
emotional distress damages to plaintiffs are limited,
hard to come by, and difficult to sustain on appellate
review. But eliminating the remedy would undermine
enforcement, and leave some harmed individuals with
no remedy at all. If the Fifth Circuit’s judgment is
affirmed, that would be the result, to the great
detriment of individuals with disabilities throughout
the country.

16
II. Emotional distress damages, though crucial,
are hard to prove and reasonable in scope.
Allowing courts to impose emotional distress
damages will not open a floodgate of damages that
could incapacitate health-care providers or other
economic actors that are covered by the Rehabilitation
Act or any of the other relevant statutes. We know this
because emotional distress damages have been
available in many jurisdictions for a long time, and
damages awarded for emotional harms have been
modest and backed by robust evidence. As explained
further below, the law and courts already cabin
excessive verdicts.
First, as Petitioner has explained, almost the entire
United States is covered by circuits where emotional
distress damages are recoverable under the
Rehabilitation Act and the related statutes. See Pet.
Br. at 3–4 (collecting cases). And this has been the
case for many years. This Court itself has allowed
victims of discrimination to seek and recover emotional
distress damages four times without questioning their
availability. See Pet. at 14. The Fifth Circuit stands
alone, in other words, in subjecting plaintiffs in Texas,
Louisiana, and Mississippi to this exceptionally harsh
rule. And despite this overwhelming imbalance in the
authorities, there is no evidence of any flood of claims
in states where emotional or mental distress harms are
compensable under Title VI and the statutes that
incorporate its remedies. As explained further below,
Amici have reviewed available data and have found few
sizeable judgments or settlements arising from
discrimination against disabled persons based on

17
emotional distress. In fact, in many cases, the damages
awarded for emotional distress are less than $10,000.
On top of that, Title VI and the cases interpreting it
impose limitations on the damages a plaintiff may
receive. Of course, no punitive damages are available,
under Barnes v. Gorman, 536 U.S. 181, 187 (2002). And
in order to recover any damages at all, a plaintiff must
show that the conduct was intentional— there is no
simple negligence standard in Title VI or any of the
related statutes.
Most courts to consider the issue define intentional
conduct as requiring a showing of deliberate
indifference. This imposes liability upon a funding
recipient only for its own misconduct—i.e., deliberate
indifference in the face of known acts of discrimination.
See Davis v. Monroe County Bd. Of Ed., 526 U.S. 629,
640–41 (1999). A funding recipient’s liability for
damages therefore is limited to those circumstances in
which an “appropriate person[,] * * * an official of the
recipient entity with authority to take corrective action
to end the discrimination[,] * * * has actual knowledge
of discrimination in the recipient’s programs and fails
adequately to respond.” Gebser v. Lago Vista Indep.
Sch. Dist., 524 U.S. 274, 290 (1998); see Davis, 526 U.S.
at 641–42. See also Francois v. Our Lady of the Lake
Hospital, No. 20-30707, ___ F.4th ___, 2021 WL
3465006 (5th Cir. Aug. 6, 2021) (holding that plaintiff
could not survive summary judgment because “the
evidence is not sufficient for a reasonable jury to
determine that the Hospital had actual knowledge of
[plaintiff’s] need for an on-site interpreter”).

18
And even if that were not so, emotional distress
damages are hard to prove. A court may not award
speculative damages; there must be “direct and
substantial evidence of humiliation or emotional
injury.” Gunby v. Pennsylvania Electric Co., 840 F.2d
1108, 1121–22 (3d Cir. 1988); see also Hetzel v. County
of Prince William, 89 F.3d 169, 171 (4th Cir. 1996)
(rejecting award because plaintiff “presented no
evidence corroborating the existence” of her emotional
distress); Brady v. Fort Bend County, 145 F.3d 691, 719
(5th Cir. 1998) (requiring “sufficiently articulated”
evidence of mental anguish); Bolden v. Se. Pa. Transp.
Auth., 21 F.3d 29, 33–34, 36 (3d Cir. 1994) (requiring
evidence of actual injury to recover mental anguish
damages).
A review of final awards around the United States
shows precisely how difficult such damages are to
prove. Amici have conducted an extensive search of
jury verdicts under the Rehabilitation Act. While many
viable Rehabilitation Act claims end in settlement
before trial, the handful of verdicts that have been won
do not involve runaway emotional distress damages.
Amici have identified only the following Rehabilitation
Act awards that were not overturned under post-trial
review:

19
Case Name2
R.W.
Pierce
Snell
M.P.
Delano-Pyle
Gorman
Powers
Sumes
Howe

2 3 4 5

Noneconomic Damages
$0–$75,0003
$0–$70,0003
$35,0004
$47,375
$200,000
$150,000
$0–$560,0005
$10,000
$0–$62,0005

2

The full citations for the cases in this table are as follows: R.W. v. Bd.
of Regents of the Univ. Sys. of Ga., No. 1:13-CV-2115, 2016 WL 607395
(N.D. Ga. June 7, 2016); Pierce v. District of Columbia, No. 1:13-cv134, 2016 WL 7225220 (D.D.C. May 11, 2016); Snell v. N. Thurston
Sch. Dist., No. 3:14-cv-05786, 2015 WL 9474130 (W.D. Wash. Nov. 21,
2015); M.P. v. Indep. Sch. Dist. No. 721, Civ. No. 01-771, 2006 WL
8444974 (D. Minn. Dec. 14, 2006); Delano-Pyle, 302 F.3d 567 (5th Cir.
2002); Gorman v. Easley, No. 95-0475-CV, 1999 WL 34808615 (W.D.
Mo. Oct. 28, 1999), aff’d in part, rev’d in part and remanded, 257 F.3d
738 (8th Cir. 2001), rev’d sub nom. Barnes v. Gorman, 536 U.S. 181
(2002); Powers v. MJB Qcquisition Corp., 184 F.3d 1147 (10th Cir.
1999); Sumes v. Andres, 938 F. Supp. 9 (D.D.C. 1996); Howe v. Hull,
873 F. Supp. 72 (N.D. Ohio 1994).

3

Some of the jury verdicts discovered by Amici were decided under
broadform or general damages questions that, as far as counsel can
tell, may have included both economic and noneconomic damages.
4

Although the verdict form asked for damages in a general or
broadform format, the jury instructions on damages listed pain and
suffering as the only factor to consider for determining compensatory
damages. Compare Verdict Form, Snell v. N. Thurston Sch. Dist., No.
3:14-cv-05786 (Nov. 12, 2015), with Jury Instructions, Snell v. N.
Thurston Sch. Dist., No. 3:14-cv-05786 (Nov. 12, 2015).
5

Some other verdict forms in cases identified by Amici are unavailable
on PACER, and the total compensatory damages are known only from

20
Although it is certainly possible that additional jury
verdicts exist, the table above of every upheld verdict
found by Amici speaks for itself. Indeed, in the two
cases where Amici could confidently ascertain that the
only compensatory damages were emotional distress
damages—Snell and Sumes—the damages were
$35,000 and $10,000, which are each eminently
reasonable numbers.
On the rare occasions in which large emotional
distress damages are awarded in Title VI and related
cases, they are frequently remitted or entirely
eliminated by trial courts or courts of appeals as being
excessive or being unsupported by the evidence. This
Court has made that clear in analogous Section 1983
cases, for instance. See Carey, 435 U.S. at 249
(rejecting emotional distress damages as unsupported
by the evidence). Federal courts of appeals also
carefully police such awards, examining the proven
facts to ensure that mental distress damages are
strictly limited to what the evidence will bear. See, e.g.,
Thomas v. Tex. Dep’t of Criminal Justice, 297 F.3d 361,
367 (5th Cir. 2002) (remitting future emotional distress
damages from $100,000 to $75,000); Trainor v. HEI
Hosp., LLC, 699 F.3d 19, 32 (1st Cir. 2012) (remitting
emotional distress damages in employment
discrimination case from $500,000 to $200,000).

a published decision or docket-sheet note that did not indicate any
breakdown of economic and noneconomic damages. However, the
Powers verdict may have included a large amount of economic
damages, given that the discrimination led to further injury that
consigned him to using a wheelchair. See Powers, 184 F.3d at 1150.

21
This is just as true in state courts, which of course
have concurrent jurisdiction over Title VI and the other
related statutes. The Alabama Supreme Court, for
example, “has not hestitated to remit compensatory
damages where there is a lack of evidence indicating
that the plaintiff suffered significant mental anguish.”
Orkin Exterminating Co., Inc. v. Jeter, 832 So.2d 25, 37
(Ala. 2000) (emphasis added). Other state courts take
a similar attitude. See Davis v. City of Chicago, 2020 IL
App (1st) 182551-U, ¶ 3, 147 N.E.3d 687 (Ill. 2020)
(remitting $2,000,000 emotional distress verdict to
$100,000); Linder v. Bos. Fair Hous. Comm’m, 84 Mass.
App. Ct. 1125, 999 N.E.2d 502 (2013) (remanding
emotional distress award to trial court because
evidence was not clear that distress was caused by the
tort rather than by other factors in the plaintiff’s life);
Suffolk Cty. Cmty. Coll. v. N.Y. State Div. of Human
Rights, 75 A.D.3d 513, 515, 904 N.Y.S.2d 753, 755
(2010) (award of $50,000 in emotional distress damages
in a racial discrimination case was “excessive” and
needed to be remitted to $5,000); City of Hollywood v.
Hogan, 986 So. 2d 634, 649 (Fla. Dist. Ct. App. 2008)
(noting that an award of $150,000 for “emotional
distress should be viewed as an upper threshold”).
Although this case presents the Court simply with
a question about the availability of emotional distress
damages under the Rehabilitation Act, rather than the
standard to achieve them, cases throughout the
country illustrate how courts are equipped to prevent
unsupported awards. This Court should reverse the
Fifth Circuit and allow the type of damages most
fitting to redress all of the injuries incurred by
plaintiffs in Rehabilitation Act cases and cases under

22
the related statutes, knowing full well that the lower
courts will keep these awards reasonable as each case
requires.
CONCLUSION
This Court should reverse and remand this case for
trial on the merits.
Respectfully submitted,
RAFFI MELKONIAN
Counsel of Record
MICHAEL ADAMS-HURTA
WRIGHT CLOSE & BARGER, LLP
One Riverway, Suite 2200
Houston, Texas 77056
(713) 572-4321
melkonian@wrightclosebarger.com
Counsel for Amici Curiae
Dated: August 30, 2021

